Case: 20-10693

Document: 00515700992

Page: 1

Date Filed: 01/11/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED
January 11, 2021

No. 20-10693
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Michael Lawrence Williams,
Defendant—Appellant.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 5:06-CR-30-1
Before Wiener, Southwick, and Duncan, Circuit Judges.
Per Curiam:*
Michael Lawrence Williams appeals the district court’s denial of his
motion for a reduction in sentence under Section 404 of the First Step Act of
2018. The district court concluded that Williams was eligible for a reduction
but exercised its discretion and denied the motion.

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

Case: 20-10693

Document: 00515700992

Page: 2

Date Filed: 01/11/2021

No. 20-10693

Williams asserts that the district court committed a procedural error
by failing to explain adequately its decision to deny his motion. He contends
that the district court’s brief explanation in a form order did not address his
arguments for a reduction in sentence or provide a record to which we could
apply meaningful appellate review. However, as Williams acknowledges, his
claim is foreclosed by our caselaw. See United States v. Batiste, 980 F.3d 466,
479 (5th Cir. 2020).
Further, Williams argues that the denial of his motion resulted in the
imposition of a substantively unreasonable sentence. He maintains that his
continued incarceration is longer than necessary to comply with the relevant
sentencing objectives and does not account for the need to avoid unwarranted
sentencing disparities among similarly situated defendants. The substantive
reasonableness standard does not apply to motions under Section 404 of the
First Step Act. See id. at 479-80. Therefore, as Williams acknowledges, his
claim is foreclosed. See id. at 479-80.
The Government has filed an unopposed motion for summary
affirmance and, alternatively, requests an extension of time to file its brief.
Because Williams concedes that the issues asserted on appeal are foreclosed,
summary affirmance is proper. See Groendyke Transp., Inc. v. Davis, 406 F.2d
1158, 1162 (5th Cir. 1969).
Thus, the Government’s motion for summary affirmance is
GRANTED, the Government’s alternative motion for an extension of time
to file a brief is DENIED as moot, and the judgment of the district court is
AFFIRMED.

2

Case: 20-10693

Document: 00515701001

Page: 1

Date Filed: 01/11/2021

United States Court of Appeals
FIFTH CIRCUIT
OFFICE OF THE CLERK
LYLE W. CAYCE
CLERK

TEL. 504-310-7700
600 S. MAESTRI PLACE,
Suite 115
NEW ORLEANS, LA 70130

January 11, 2021
MEMORANDUM TO COUNSEL OR PARTIES LISTED BELOW
Regarding:

Fifth Circuit Statement on Petitions for Rehearing
or Rehearing En Banc

No. 20-10693

USA v. Williams
USDC No. 5:06-CR-30-1

Enclosed is a copy of the court's decision. The court has entered
judgment under Fed. R. App. P. 36. (However, the opinion may yet
contain typographical or printing errors which are subject to
correction.)

Fed. R. App. P. 39 through 41, and 5TH Cir. R. 35, 39, and 41
govern costs, rehearings, and mandates.
5TH Cir. R. 35 and 40
require you to attach to your petition for panel rehearing or
rehearing en banc an unmarked copy of the court's opinion or order.
Please read carefully the Internal Operating Procedures (IOP's)
following Fed. R. App. P. 40 and 5TH Cir. R. 35 for a discussion
of when a rehearing may be appropriate, the legal standards applied
and sanctions which may be imposed if you make a nonmeritorious
petition for rehearing en banc.

Direct Criminal Appeals. 5TH Cir. R. 41 provides that a motion
for a stay of mandate under Fed. R. App. P. 41 will not be granted
simply upon request. The petition must set forth good cause for
a stay or clearly demonstrate that a substantial question will be
presented to the Supreme Court. Otherwise, this court may deny
the motion and issue the mandate immediately.
Pro Se Cases.
If you were unsuccessful in the district court
and/or on appeal, and are considering filing a petition for
certiorari in the United States Supreme Court, you do not need to
file a motion for stay of mandate under Fed. R. App. P. 41. The
issuance of the mandate does not affect the time, or your right,
to file with the Supreme Court.
Court Appointed Counsel. Court appointed counsel is responsible
for filing petition(s) for rehearing(s) (panel and/or en banc) and
writ(s) of certiorari to the U.S. Supreme Court, unless relieved
of your obligation by court order. If it is your intention to
file a motion to withdraw as counsel, you should notify your client
promptly, and advise them of the time limits for filing for
rehearing and certiorari.
Additionally, you MUST confirm that
this information was given to your client, within the body of your
motion to withdraw as counsel.

Case: 20-10693

Document: 00515701001

Page: 2

Date Filed: 01/11/2021

Sincerely,
LYLE W. CAYCE, Clerk

By: _______________________
Laney L. Lampard, Deputy Clerk
Enclosure(s)
Mr. Adam Nicholson
Ms. Leigha Amy Simonton

